       U.S. Department of Labor
       Office of Inspector General
             Office of Audit




                Audit of
    Chicago Housing Authority
    Welfare-to-Work Competitive Grant
      Grant No. Y-7207-9-00-81-60
            Interim Audit Period
January 4, 1999 through December 31, 2000




                              Audit Report No. 05-01-005-03-386
                              Date Issue: September 25, 2001
Chicago Housing Authority Welfare-to-Work Competitive Grant



                                      Table of Contents


                                                                      Page

Acronyms                                                                ii

Executive Summary                                                      iii

Background                                                              1

Objective, Scope and Methodology                                        3

Findings and Recommendations                                            4
       1. No Management Information System                              4
       2. Inadequate Participant Eligibility and Documentation          5
       3. QFSR Expenditure Detail Not Documented                       11
       4. Insufficient Documentation of Contractor Costs               13
       5. Improper Procurement Procedures                              14

Exhibit A - Cumulative Quarterly Financial Status Report               16

Appendix A - Grantee Response
                                                                 17




DOL-OIG Report No. 05-01-005-03-386                                          i
Chicago Housing Authority Welfare-to-Work Competitive Grant



                                           Acronyms


AFDC            Aid to Families with Dependent Children
CBE             Chicago Board of Education
CFR             Code of Federal Regulations
CHA             Chicago Housing Authority
CPS             Chicago Public Schools
DOL             Department of Labor
ETA             Employment and Training Administration
IDHS            Illinois Department of Human Services
MIS             Management Information System
OMB             Office of Management and Budget
QFSR            Quarterly Financial Status Report
TANF            Temporary Assistance for Needy Families
WtW             Welfare-to-Work




DOL-OIG Report No. 05-01-005-03-386                           ii
Chicago Housing Authority Welfare-to-Work Competitive Grant



                                    Executive Summary


The U.S. Department of Labor (DOL), Office of Inspector General has completed an interim
financial and compliance audit of the $5,000,000 Welfare-to-Work (WtW) Competitive
Grant awarded to the Chicago Housing Authority (CHA). The grant’s original period of
performance was January 4, 1999 through June 30, 2001, and was extended via a grant
modification through December 31, 2001. Our interim audit period was from
January 4, 1999 through December 31, 2000. As of December 31, 2000, CHA had claimed
$390,994 of expenditures in support of 109 WtW participants served. The cumulative
Quarterly Financial Status Report (QFSR) is attached as Exhibit A.

The objective of this audit was to review the allowability of claimed cost and eligibility of
WtW participants. The testing was not designed to express an opinion on the QFSR.

We identified five findings:

        1.      CHA does not have a Management Information System (MIS) in place to
                track the enrollment of participants in the WtW program and identify
                participants’ 70 percent and 30 percent classifications, program activities and
                placement into unsubsidized employment. Further, when reviewing the
                documentation for the 109 participants reported, we identified only
                92 participants served, excluding duplicates.

        2.      The eligibility testing revealed 4 missing participant files, 20 incomplete
                participant files, 7 ineligible participants, 3 misclassified participants, and 2
                participants outside our audit period. In total, $42,427 were questioned and
                $11,571 were misclassified.

        3.      While we were able to reconcile total WtW expenditures on the       December
                31, 2000 Quarterly Financial Status Report (QFSR) to the financial records,
                individual categories of expenditures could not be reconciled. These included
                70 percent and 30 percent expenditures, administrative expenditures,
                technology/computerization expenditures, and the program activity
                expenditure categories.

        4.      A payment of $43,851 to the Chicago Board of Education/Chicago Public
                Schools for participant services lacked sufficient documentation to support
                the costs, the services provided and the participants served.



DOL-OIG Report No. 05-01-005-03-386                                                             iii
Chicago Housing Authority Welfare-to-Work Competitive Grant


        5.      CHA did not follow its own, or Federal, procurement requirements for full
                and open competition.

We recommend that the Assistant Secretary for Employment and Training:

        1.      direct CHA to develop and maintain a MIS to track the enrollment of
                participants in the WtW program and identify participants’ 70 percent and 30
                percent classifications, program activities and placement into unsubsidized
                employment;

        2.      obtain support or disallow the questioned cost of $15,428 for the four missing
                participant files and $26,999 for the seven ineligible participants;

        3.      direct CHA, once they have a participant MIS in place and a system to track
                70 percent and 30 percent category expenditures, to:

                a.      correct the participants database to reflect the 70 percent classification
                        for the three misclassified participants, and
                b.      transfer $11,571 from the 30 percent category to the 70 percent
                        category expenditures accounts;

        4.      direct CHA to ensure they and their contractors have a process in place to
                ensure eligibility determinations are properly made and documented, including
                Temporary Assistance for Needy Families and other relevant information from
                the Illinois Department of Human Services;

        5.      direct the CHA to set up a system to ensure that CHA and all contractors
                identify 70 percent and 30 percent expenditures, administrative expenditures,
                technology/computerization expenditures, and the program activity
                expenditure categories. Once a system is in place, CHA needs to recalculate
                the expenditures charged to each individual line on the QFSR from the
                inception of the competitive grant;

        6.      obtain support from CHA for the claim of $43,851, or disallow the cost; and

        7.      ensure that CHA complies with full and open competition when procuring
                goods and services under the WtW grant.




DOL-OIG Report No. 05-01-005-03-386                                                             iv
Chicago Housing Authority Welfare-to-Work Competitive Grant


CHA officials generally concurred with our recommendations but took exception to our
finding regarding three of the seven ineligible participants we identified. A complete copy of
their response is attached as Appendix A.




DOL-OIG Report No. 05-01-005-03-386                                                          v
Chicago Housing Authority Welfare-to-Work Competitive Grant



                                          Background


                          The Personal Responsibility and Work Opportunity Reconciliation
     Objective of         Act of 1996 established the Temporary Assistance for Needy
    Welfare-to-Work       Families (TANF) program. The TANF provisions substantially
                          changed the nation’s welfare system from one in which cash
                          assistance was provided on an entitlement basis to a system in
which the primary focus is on moving welfare recipients to work and promoting family
responsibility, accountability and self-sufficiency. This is known as the “work first”
objective.

Recognizing that individuals in TANF may need additional assistance to obtain lasting jobs
and become self-sufficient, the Balanced Budget Act of 1997 amended certain TANF
provisions and provided for Welfare-to-Work (WtW) grants to states and local communities
for transitional employment assistance which moves hard-to-employ TANF welfare recipients
into unsubsidized jobs and economic self-sufficiency.

The Welfare to Work and Child Support Amendments of 1999 allow grantees to more
effectively serve both long-term welfare recipients and noncustodial parents of low-income
children.

Of the $3 billion budgeted for the WtW program in Fiscal Years 1998 and 1999,         $711.5
million was designated for award through competitive grants to local communities.

                          On January 4, 1999, the Chicago Housing Authority (CHA)
   Chicago Housing        received a 30-month WtW competitive grant in the amount of
     Authority’s          $5,000,000. The period of performance was January 4, 1999
   Competitive Grant      through June 30, 2001. The first grant modification was made on
                          January 28, 2000, which extended the grant period to
                          December 31, 2001, and considerably changed the agencies
responsible for outreach and identification, as well as job readiness/employment service
delivery. This was done with no additional funding. The second modification was made on
September 6, 2000, which realigned the budget items and increased the consultant fee to
$450 per day.

The purpose of the grant was to provide services for a minimum of 900 TANF eligible
recipients. The grant application stated that the objective was to focus on TANF recipients
at Lawndale Gardens, Madden Park Homes, Stateway Gardens, Robert Taylor Homes,



DOL-OIG Report No. 05-01-005-03-386                                                           1
Chicago Housing Authority Welfare-to-Work Competitive Grant


Washington Park Homes and Ida B. Wells Home housing developments and the Chicago
community area in which they are located.

                           In addition to the provisions of the Balanced Budget Act of 1997,
    Principal Criteria     the Department of Labor (DOL) issued regulations found in
                           20 CFR 645. Interim regulations were issued November 18, 1997.
                           Final Regulations were issued on January 11, 2001 and became
effective April 13, 2001. Also on April 13, 2001, a new Interim Final Rule was effective,
implementing the Welfare to Work and Child Support Amendments of 1999. This resulted in
changes in the participant eligibility requirements for competitive grants, effective January 1,
2000.

As a nonprofit entity, CHA is required to follow general administrative requirements
contained in Office of Management and Budget (OMB) Circular A-110, which is codified in
DOL regulations at 29 CFR 95, and OMB Circular A-122 requirements for determining the
allowability of costs.

                          In September 1999, we issued a report on the results of a
   Postaward Survey       postaward survey of 12 second-round competitive grantees. CHA
                          was included in that review. During this audit we followed up on
                          our concerns identified in the postaward survey. In general, based
on our audit work, these concerns were not adequately addressed (see Findings and
Recommendations).

                                             –––––

This report is intended for the information of the U.S. Department of Labor, Employment
and Training Administration (ETA) and CHA. However, upon issuance this report becomes
a matter of public record and its distribution is unlimited.




DOL-OIG Report No. 05-01-005-03-386                                                            2
Chicago Housing Authority Welfare-to-Work Competitive Grant



                           Objective, Scope and Methodology


                           The objective of this audit was to review the allowability of claimed
        Objective          cost and eligibility of WtW participants.

                           Our interim audit included program activities that occurred from
    Audit Scope and        January 4, 1999 through December 31, 2000.
     Methodology
                           The extent of our audit testing was based on a vulnerability
                           assessment of participant eligibility, financial management and
selected categories of cost. We did not audit performance measurements.

We audited claimed expenditures totaling $390,994 reported on the QFSR of
December 31, 2000 (Exhibit A). Using judgmental sampling techniques, we tested a limited
number of transactions, including staff salaries and fringe benefits, administrative
expenditures, technology costs, program costs and contractor costs. We also reviewed the
grantee’s procurement of contracts.

To test eligibility of the 109 participants served, as reported on the QFSR, we created two
groups of participants – those enrolled before January 1, 2000, and those enrolled from
January 1, 2000 through December 31, 2000. This was necessary because of a change in
participant eligibility requirements, effective January 1, 2000. Using judgmental sampling
techniques, we selected 19 participants that enrolled before January 1, 2000, and
11 participants that enrolled from January 1, 2000 through December 31, 2000. As part of
our eligibility determination, we reviewed information provided by the Illinois Department of
Human Services (IDHS) to determine whether each participant met TANF and/or Aid to
Families with Dependent Children (AFDC) cash assistance requirements as of the date of
WtW eligibility determination.

To accomplish the audit objectives, we interviewed grantee officials, and reviewed grantee
policies and procedures, participant files, accounting records, and source documentation,
such as contracts, invoices and payrolls to support claimed costs.

The results of our audit are listed in the Findings and Recommendations section, beginning
on page 4.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from April 9, 2001 to
July 26, 2001, at the offices of CHA.


DOL-OIG Report No. 05-01-005-03-386                                                            3
Chicago Housing Authority Welfare-to-Work Competitive Grant



                            Findings and Recommendations


                           1. No Management Information System

CHA does not have a Management Information System (MIS) in place to track the
enrollment of participants in the WtW Program and identify participants’ 70 percent and 30
                             percent classifications, program activities and placement into
                             unsubsidized employment. As a result, CHA lacks a system for
   Participant statistics    reporting participants served in the WtW program. Further,
 on QFSR unsupported         CHA was unable to provide a listing of the
                             109 participants reported on the December 31, 2000 QFSR.

20 CFR 645.240 (d) Participant reports, states:

        . . . Each grant recipient must submit participant reports to the Department.
        Participant data must be aggregate data, and, for most data elements, must be
        cumulative by fiscal year of appropriation.

Since CHA could not provide us with a list of the participants reported on the
December 31, 2000 QFSR, we developed an audit universe from the various listings and
information provided by CHA. The various listings only accounted for 108 of these        109
participants shown on the QFSR. Upon review of these listings we found 16 duplicate names
which reduced the total number of participants served to 92. We also found that
20 of 92 participants files lacked the proper 70 percent and 30 percent classifications.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct CHA to
develop and maintain a MIS to track the enrollment of participants in the WtW Program and
identify participants’ 70 percent and 30 percent classifications, program activities and
placement into unsubsidized employment.

Grantee Response:

CHA officials responded that CHA transferred responsibility for recruitment, enrollment and
placement of participants to the Mayor’s Office of Workforce Development (MOWD) in
November 2000. MOWD has a MIS to track the enrollment of participants and identify
participants’ 70 percent and 30 percent classifications, program activities and placement into
unsubsidized employment.


DOL-OIG Report No. 05-01-005-03-386                                                              4
Chicago Housing Authority Welfare-to-Work Competitive Grant


Auditor’s Conclusion:

We concur with CHA’s plan to utilize the MOWD MIS for tracking participants. However,
our recommendation cannot be closed until ETA verifies that CHA has fully implemented the
MIS to include all participants reported by CHA since the inception of the grant.


                 2. Inadequate Participant Eligibility and Documentation

To test participant eligibility, we judgmentally selected a sample of 30 from our universe of
92 WtW participants. The universe was divided into two groups - 80 participants enrolled
before January 1, 2000, and 12 participants enrolled from January 1, 2000 through
December 31, 2000. This was necessary because of a change in participant eligibility
requirements effective January 1, 2000. We selected a sample of 19 participants enrolled
prior to January 1, 2000, and 11 participants enrolled from January 1, 2000 through
December 31, 2000. The eligibility testing revealed 4 missing participant files,
20 incomplete participant files, 7 ineligible participants, 3 misclassified participants, and
2 participants whose actual enrollment dates were outside our audit period.

A. Missing Participant Files

                                  CHA was unable to locate four participant files selected in
  4 missing files resulted in     our sample of 19 participants enrolled before
  $15,428 questioned cost         January 1, 2000.


20 CFR 645.214(b) states:

        The operating entity must ensure that there are mechanisms in place to determine
        WtW eligibility for individuals who are receiving TANF assistance. . . .

20 CFR 645.214(c) states:

        The operating entity must ensure that there are mechanisms in place to determine
        WtW eligibility for individuals who are not receiving TANF assistance (i.e.,
        noncustodial parent . . . and individuals who have reached the time limit on receipt
        of TANF. . . .




DOL-OIG Report No. 05-01-005-03-386                                                             5
Chicago Housing Authority Welfare-to-Work Competitive Grant


The grantee indicated the files were misplaced. Without supporting documentation there is
no way of determining whether the four participants were eligible for WtW. As a result, we
are questioning $15,428, as calculated on page 9.

B. Lack of TANF Information

                          Of the 26 participant files available for review in our sample,
 20 incomplete files      20 lacked TANF/AFDC information from IDHS needed for
                          verifying eligibility. Fourteen were enrolled before
                          January 1, 2000, and 6 were enrolled from January 1, 2000 through
December 31, 2000.

Due to the lack of this critical information in participant files, we visited the IDHS office and
obtained TANF/AFDC information in order to verify if participants were in fact eligible to
participate in the WtW program. Our results are noted in Item C below.

20 CFR 645.214 (b) states:

        The operating entity must ensure that there are mechanisms in place to determine
        WtW eligibility for individuals who are receiving TANF assistance. These
        mechanisms:

                (1) Must include arrangements with the TANF agency to ensure that a WtW
                eligibility determination is based on information, current at the time of the
                WtW eligibility determination. . . .

20 CFR 645.214 (c) states:

        The operating entity must ensure that there are mechanisms in place to determine
        WtW eligibility for individuals who have reached the time limit on the receipt of
        TANF. . . .

C. Ineligible Participants

                               We identified seven participants in our sample who CHA
  7 ineligible participants    believed were on TANF and were enrolled in the program. Our
    resulted in $26,999        analysis determined they were not receiving TANF at the time
      questioned cost          of enrollment and therefore were not eligible.




DOL-OIG Report No. 05-01-005-03-386                                                             6
Chicago Housing Authority Welfare-to-Work Competitive Grant


Moreover, they were not noncustodial parents or other types of participants who would be
eligible without receiving TANF assistance.

        •       Two participants were enrolled before January 1, 2000, and classified as hard-
                to-employ (70%). 20 CFR 645.212(a)(1) requires these participants to meet
                the following requirement:

                        The individual is receiving TANF assistance. . . .

        •       Two participants were enrolled before January 1, 2000, and classified as long-
                term welfare dependence (30%). 20 CFR 645.213(a)(1) requires these
                participants to meet the following requirement:

                        The individual is receiving TANF assistance. . . .

        •       Three participants were enrolled after January 1, 2000, and classified as other
                eligibles (30%). 20 CFR 645.213(a) requires these participants to meet the
                following requirement:

                        Is currently receiving TANF assistance. . . .

We believe that the ineligible participants were served by CHA because they did not have an
adequate information system to determine whether the participants were receiving
TANF/AFDS benefits at the time of enrollment. Because we visited IDHS to obtain TANF
information for the 20 files in our sample which lacked such information, we were able to
verify the eligibility of 13 participants. However, since none of the seven remaining
participants had been receiving TANF at the time of their enrollment, we determined they
were ineligible. As a result, we are questioning $26,999, as calculated on page 9.

D. Misclassified Participants

                                Our eligibility testing also disclosed three participants who
  30 percent classification     were not properly classified. Two participants were Long-
        statistics and          term welfare dependents (30%) enrolled before
  expenditures overstated       January 1, 2000, and one participant was classified as Other
                                Eligible (30%) and enrolled from January 1, 2000 through
                                December 31, 2000. The participants should have been
classified as 70 percent participants.




DOL-OIG Report No. 05-01-005-03-386                                                             7
Chicago Housing Authority Welfare-to-Work Competitive Grant


CHA’s misclassifications overstated their accomplishments in the 30 percent category of
participants served, while understating the results in the 70 percent category. The improper
classification of costs caused the QFSR expenditures for each category to also be misstated.

We believe the misclassification occurred because the files lacked information documenting
the amount of time the participants were receiving TANF and AFDC benefits. The
information we obtained at the IDHS showed they received TANF for 30 or more months,
long enough to qualify as 70 percent participants. As result of this misclassification, the 30
percent expenditures were overstated by $11,571, as calculated on page 9.

E. Participants Outside Audit Period

                              We noted two participants in our sample who had enrollment
  2 participants eligible     dates after our audit period cut-off of December 31, 2000.
  but were outside our        Nevertheless, we tested eligibility of the participants and they
      audit period            were eligible.


                                           – – – – –

The results of our sample of 30 participants show that during our audit period there was a
problem with CHA’s eligibility determination and documentation. Of the 30 participants
sampled, 4 participant files were missing, 20 participant files were incomplete,               7
participants were ineligible, 3 participants were misclassified and 2 participants were outside
our audit period.

Since CHA had no way of tracking the costs associated with each of the participants, we
calculated the average cost per participant as follows:




DOL-OIG Report No. 05-01-005-03-386                                                              8
Chicago Housing Authority Welfare-to-Work Competitive Grant


                           Calculation of Average Participant Cost

                    Total Reported Costs through 12/31/00           $390,994
                    Less Questioned Costs - See Finding 4             43,851
                    Total Costs Attributable to Participants        $347,143
                    Participant Universe on 12/31/00                  90*
                    Average Cost Per Participant                    $3,857

                   * excluded the two participants enrolled after
                     December 31, 2000 (See Finding 2E).


                       Summary of Questioned and Misclassified Costs

                    Questioned Costs:
                    Item A.         Missing Participant Files
                                    (4 x $3,857)                    $15,428
                    Item C.                 Ineligible
                                            Participants             26,999
                                    (7 x $3,857)
                    Total Questioned Costs                          $42,427



                    Misclassified Costs:
                    Item D.         Misclassified participants
                                    as 30% category instead
                                    of 70% category

                                    (3 x $3,857)                    $11,571




DOL-OIG Report No. 05-01-005-03-386                                            9
Chicago Housing Authority Welfare-to-Work Competitive Grant


Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

        1.      obtain support or disallow the questioned cost of $15,428 for the four missing
                participant files and $26,999 for the seven ineligible participants;

        2.      direct CHA, once they have a participant MIS in place and a system to track
                70 percent and 30 percent category expenditures (see Findings 1 and 3), to:

                a.      correct the participant database to reflect the 70 percent classification
                        for the three misclassified participants, and
                b.      transfer $11,571 from the 30 percent category to the 70 percent
                        category expenditures accounts; and

        3.      direct CHA to ensure they and their contractors have a process in place to
                ensure eligibility determinations are properly made and documented, including
                TANF and other relevant information from the IDHS.

Grantee Response:

CHA officials concur with our questioned cost of $15,428 for four missing participant files.
They will obtain support from the user department or return the questioned cost of $15,428.

CHA officials concur with our additional questioned cost of $15,428 for four of the seven
ineligible participants we identified. They will obtain support from the user department or
return the questioned cost of $15,428. However, CHA believes that three of the seven
participants we reported as ineligible because they were not receiving TANF at the time of
enrollment are in fact eligible under the “Custodial Parent below Poverty Line” criteria.

CHA officials concur with our finding that three misclassified participants should have been
classified as 70 percent participants. The participants will be reassigned to the 70 percent
category when the MIS is in place, and the associated cost of $11,571 will be transferred to
the proper cost category.

CHA officials stated that they and their contractors will have a process in place to ensure
participant eligibility determinations are properly made and documented.




DOL-OIG Report No. 05-01-005-03-386                                                             10
Chicago Housing Authority Welfare-to-Work Competitive Grant


Auditor’s Conclusion:

We continue to question costs of $15,428 for missing participant files until adequate
documentation has been provided or QFSR reported expenditures have been properly
reduced.

For three of the seven participants that we determined were ineligible because they were not
receiving TANF, CHA contends they are eligible under the “Custodial Parent below Poverty
Line” criteria. The supporting documentation in the participants’ files (WtW Eligibility
Criteria checklist) indicated the participants were determined eligible based on the fact that
each was a “TANF recipient who has characteristics associated with long-term welfare
dependency, or significant barriers to self-sufficiency as established by the Local Board.”
Our audit attempted to verify this determination and concluded that the participants were not
receiving TANF. If these participants are eligible under other criteria, documentation should
be provided to ETA during the audit resolution process to support this contention. We
continue to question $26,999 for all seven ineligible participants until adequate
documentation has been provided or QFSR reported expenditures have been properly
reduced.

We concur with CHA’s planned actions to reassign the participants to the 70 percent
category and transfer $11,571 to the proper cost category. However, our recommendation
cannot be closed until ETA verifies that CHA has fully implemented the required corrective
actions.

We also concur with CHA’s plan to have a process in place to ensure that participant
eligibility determinations are properly made and documented. However, our
recommendation cannot be closed until ETA verifies that CHA has fully implemented the
required corrective actions.


                       3. QFSR Expenditure Detail Not Documented

While we were able to reconcile total WtW expenditures on the December 31, 2000 QFSR to
the financial records, individual categories of expenditures could not be reconciled. These
included 70 percent and 30 percent expenditures, administrative expenditures, technology/
computerization expenditures, and the program activity expenditure categories.

                                   This condition was noted in our postaward survey of CHA
   No crosswalk from the           and included in our report on the second round WtW
 general ledger to the QFSR        competitive grants in September 1999. Yet, the grantee



DOL-OIG Report No. 05-01-005-03-386                                                          11
Chicago Housing Authority Welfare-to-Work Competitive Grant


could not provide a crosswalk that showed which expenditures in the general ledger were
associated with 70 percent and 30 percent expenditures, administrative expenditures,
technology/ computerization expenditures, and the program activity expenditure categories.
As a result, it was not possible to reconcile expenditures to the financial records, except in
total.

Since inception of this grant, CHA has had several grant administrators and current staff
could not explain how the expenditures were broken down on the QFSR. In addition, the
CHA accounting system never incorporated the QFSR expenditures reporting requirements.
These are important because of limitations on costs.

20 CFR 645.211 states:

        . . . may spend not more than 30 percent of the WtW funds allocated to or awarded
        to the operating entity to assist individuals who meet the “other eligibles” eligibility
        requirements . . . The remaining funds allocated to or awarded to the operating
        entity are to be spent to benefit individuals who meet the “general eligibility” and/or
        “noncustodical parents” eligibility requirements. . . .

20 CFR 645.235(a)(2) states:

        . . . The limitation on expenditures for administrative purposes under WtW
        competitive grants will be specified in the grant agreement but in no case shall the
        limitation be more than fifteen percent (15%) of the grant award.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct CHA to set
up a system to ensure that CHA and all contractors identify 70 percent and 30 percent
expenditures, administrative expenditures, technology/computerization expenditures, and the
program activity expenditure categories. Once a system is in place, CHA needs to
recalculate the expenditures charged to each individual line on the QFSR from the inception
of the competitive grant.

Grantee Response:

CHA officials concur with our finding and responded that CHA will create an internal system
that will monitor and calculate WtW expenditures. CHA will also coordinate with
contractors to foster accurate reporting of expenditures. Once the system is in place, the
QFSR will be updated.



DOL-OIG Report No. 05-01-005-03-386                                                            12
Chicago Housing Authority Welfare-to-Work Competitive Grant


Auditor’s Conclusion:

We concur with this planned action and resolve this finding. However, our recommendation
cannot be closed until ETA verifies that CHA has fully implemented the required corrective
actions.


                     4. Insufficient Documentation of Contractor Costs

CHA contracted with the Chicago Board of Education (CBE)/Chicago Public Schools (CPS)
to coordinate pre-GED and GED programs for participants. Our audit testing disclosed that
                                 a claim in the amount of $43,851 for these services lacked
                                 sufficient documentation to support the costs, the services
  Insufficient documentation
                                 provided and the participants served. The claim merely
  resulted in questioned cost
                                 listed expenditure items, such as salaries, fringe benefits,
          of $43,851
                                 supplies and other costs. Because the claim did not provide
                                 sufficient documentation, there was no breakdown
identifying the 70 percent and 30 percent participants served and their related costs. CHA
provided us a list and attendance sheets for persons who attended Pre-GED training during
1999, but we have no way of knowing if these people were included in the $43,851
reimbursement. Morever, a number of persons listed were not WtW participants. CHA did
not comply with the CBE/CPS contract provisions or Federal reporting requirements, as
cited below.

The Narrative Quarterly Activity Reporting Requirements, cited on Exhibit B -
Attachment A - Item 4 of the contract between CHA and CBE/CPS states, in part:

        Data - this section should include the latest enrollment and expenditure data along
        with explanation for inconsistencies or changes. The data should be quantified and
        include the following: (1) Classification of individuals services, as defined by the
        DOL ETA Welfare-to-Work Grants . . . (2) Type of services provided for these
        individuals, such as intake assessment services, job placement services, job
        readiness services, post-employment services, case management, job retention
        services, and support services. (3) Outcome or progress of individuals as result of
        services performed.

The reporting requirements further state, in part, on Exhibit B - Attachment B:

        . . . Expenditures by activity must be broken-down in accordance with the 70%
        minimum and 30% maximum requirement limitation. . . .



DOL-OIG Report No. 05-01-005-03-386                                                        13
Chicago Housing Authority Welfare-to-Work Competitive Grant


29 CFR 95.21(b), Standards for financial management systems, states in part:

        Recipients’ financial management systems shall provide for the following:

                . . . (7) Accounting records including cost accounting records that are
                supported by source documentation.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training obtain support
from CHA for this claim, or disallow the cost of $43,851.

Grantee Response:

CHA officials concur and will recoup this disallowed cost of $43,851 from CBE/CPS if the
contractor cannot verify services provided and participants served.

Auditor’s Conclusion:

We continue to question $43,851 for inadequately support contractor costs. Our
recommendation cannot be closed until ETA verifies that CHA has fully implemented the
required corrective actions.


                            5. Improper Procurement Procedures

                                   CHA did not follow its own, nor Federal, procurement
    3 equipment purchases          requirements, for full and open competition. We selected
  didn’t follow procurement        six equipment costs transactions for testing. We found that
         requirements              CHA did not obtain quotations for three Gateway computer
                                   purchases.

CHA used its current computer vendor and did not follow CHA requirements to solicit price
quotations from at least three vendors. CHA’s Procurement Procedures Manual in
Section 1, Small Purchases 1.1(B) state:

        For any and all small purchases in excess of $2,500.00 but less than $100,000.00,
        no fewer than three (3) vendors shall be solicited by the Purchasing Department to
        submit price quotations. . . .




DOL-OIG Report No. 05-01-005-03-386                                                          14
Chicago Housing Authority Welfare-to-Work Competitive Grant


In addition, 29 CFR 95.43, Competition, states in part:

        All procurement transactions shall be conducted in a manner to provide, to the
        maximum extent practical, open and free competition. . . .

Recommendation:

We recommend that the Assistant Secretary for Employment and Training ensure that CHA
complies with full and open competition when procuring goods and services under the WtW
grant.

Grantee Response:

CHA officials concur that they did not follow procurement requirement for full and open
competition. CHA Grant Administration will ensure that CHA complies with all necessary
requirements when procuring goods and services under the WtW grant.

Auditor’s Conclusion:

We concur with this planned action and resolve this finding. However, our recommendation
cannot be closed until ETA verifies that CHA has fully implemented the required corrective
actions.




DOL-OIG Report No. 05-01-005-03-386                                                       15
Chicago Housing Authority Welfare-to-Work Competitive Grant



                                                                                                                                       Exhibit A

                               U. S. DEPARTMENT OF LABOR - Employment and Training Administrative
                                                   WTW COMPETITIVE GRANT
                                       Cumulative Quarterly Financial Status Report - ETA 9068-1
GRANT NO.         Y72079008160                    REPORTING PERIOD 12/31/2000                             Date Submitted 02115/2001
Reporting Grantee Information                                                Grantee Contact Information
 Grantee Name: CHICAGO HOUSING AUTHORITY                                      Contact Name: Kimberlee Lewis
                                                                                       Address: 916 S. Wabaush Suite 500
        Address: 626 WEST JACKSON BOULEVARD                                               City: Chicago State: IL Zip: 60605
              City: CHICAGO State: IL Zip:             60661-5601                        Phone: 312 674.4405

                                                                    FY 1999
Section I. GRANT TOTAL                                                        Section IV. FEDERAL PARTICIPANT SUMMARY
1. Federal Grant                                              5000000         19. Total Participants Served
2. Federal Expenditures                                        390994          (1) Required Beneficiaries (70% of $ Minimum)                 39
3. Federal Administrative Expenditures (15% Max)               104514          (2) Other Eligibles (30% of $ Maximum)                        70
4. Federal Technology/Computerization Expenditures              16022         20. Total Participants Terminated
5. Expenditures ford                                                           (1) Required Beneficiaries (70% of $ Minimum)                 15
 a. REQUIRED BENEFICIARIES (70% Minimum)                       140758          (2) Other Eligibles (30% of $ Maximum)                    1
 b. OTHER ELIGIBLES (30% Maximum)                              250236         21. Place in Unsubsidized Employment
6. Unliquidated Obligations                                                    a. Great than or Equal to 30 Hours Per Week
Section Ii. EXPENDITURES BY ACTIVITY                                           b. Less than 30 Hours Per Week
7. Community Service                                                          22. Employed In Unsubsidized Employment When Entering WtW
8. Work Experience                                                             a. Great than or Equal to 30 Hours Per Week
9. Job Creation Employment Wage Subsidies                                      b. Less than 30 Hours Per Week
 a. Public                                                                    23. Placed in Subsidized Employment
 b. Private                                                                    a. Great than or Equal to 30 Hours Per Week
10. On-the-Job Training                                                        b. Less than 30 Hours Per Week
11. Job Readiness Services                                                    24. Retained 6 mos (2 qtrs) in Unsubsidized Employment
 a. Vouchers                                                                  25. Earnings gained in 6 mos (2 qtrs) following Placement In
 b. Contracts                                                   43851          Unsubsidized Employment
12. Job Placement Services                                                     a. Sum of Earnings of those Retained In 2nd
 a. Vouchers                                                                    Subsequent Qtr. (2nd Qtr. following Base Qtr.)
 b. Contracts                                                                  b. Sum of Earnings of Same Group in Base Qtr
13. Post Employment Services                                                  Section V. REMARKS
 a. Vouchers                                                                  Grantee’s Remarks:
 b. Contracts                                                                       This Is a revised report for December, 2000
14. Job Retention Services and Support Services                 83391
15. Intake, Assessment, Eligibility Det. & Case Mgmt           143216
16. Total                                                      270458
Section III. FEDERAL PROGRAM INCOME
17. Earned
18. Expended

                                                                                                                         ETA Accept By bdale

                                                                                                                         ETA Accept On 3/01/2001




DOL-OIG Report No. 05-01-005-03-386                                                                                                               16
Chicago Housing Authority Welfare-to-Work Competitive Grant



                                                                    Appendix A




                                   Chicago Housing Authority
                                         Response to Draft Report




DOL-OIG Report No. 05-01-004-03-386                                         17
Chicago Housing Authority Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-005-03-386                           18
Chicago Housing Authority Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-005-03-386                           19
Chicago Housing Authority Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-005-03-386                           20
Chicago Housing Authority Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-005-03-386                           21
Chicago Housing Authority Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-005-03-386                           22
Chicago Housing Authority Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-005-03-386                           23
Chicago Housing Authority Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-005-03-386                           24
